ASSESSMENT OF FHWA OVERSIGHT OF
THE HIGHWAY BRIDGE PROGRAM AND
 THE NATIONAL BRIDGE INSPECTION
           PROGRAM
      Federal Highway Administration

       Report Number: MH-2010-039
       Date Issued: January 14, 2010
                                                         Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Assessment of FHWA Oversight of the                                 Date:    January 14, 2010
           Highway Bridge Program and the National Bridge
           Inspection Program
           Federal Highway Administration
           Report Number: MH-2010-039

  From:                                                                             Reply to
           Joseph W. Comé                                                           Attn. of:   JA-40
           Assistant Inspector General
              for Surface and Maritime Program Audits

    To:    Federal Highway Administrator

           This report presents the results of our assessment of the Federal Highway
           Administration’s (FHWA) oversight of the Highway Bridge Program (HBP) and
           the National Bridge Inspection Program (NBIP), and FHWA’s efforts to monitor
           states’ use of Federal-aid for bridges. While some progress has been made in
           recent years to reduce the number of deficient bridges, maximizing Federal surface
           transportation investments to improve current bridge conditions is a major
           challenge for FHWA. According to the American Association of State Highway
           and Transportation Officials (AASHTO), the average bridge in the United States is
           43 years old and, according to FHWA, about one in four of the Nation’s more than
           600,000 bridges are deficient. FHWA has estimated that as much as $65 billion
           would be needed to address current bridge deficiencies and other needed
           improvements. 1     The collapse of the Interstate 35W (I-35W) Bridge in
           Minneapolis, Minnesota, on August 1, 2007, killing 13 people, underscored the
           importance of strong bridge safety programs and the need to maximize
           investments to improve bridge conditions. With the enactment of the American
           Recovery and Reinvestment Act (ARRA) of 2009 2 comes an unprecedented
           opportunity to fund $27.5 billion worth of highway infrastructure projects,
           including those related to bridges.



           1
               This estimate is based on 2004 data and reported in constant 2004 dollars.
           2
               Pub. L. No. 111-5 (2009).
                                                                                                     2

Our objectives were to assess FHWA’s: (1) oversight of Federal-aid funds
provided to states through the HBP for deficient bridges and (2) enforcement of
bridge inspection standards under the NBIP. As part of this audit, we also
examined how FHWA could better implement data-driven, risk-based bridge
oversight, which we addressed in our January 2009 report. 3 To address these
objectives, we conducted site visits in Kentucky, Michigan and Pennsylvania and
interviewed FHWA officials in 11 Division Offices. We also obtained and
analyzed data from the Fiscal Management Information System and National
Bridge Inventory databases.

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. See details on our scope and
methodology in exhibit A.

RESULTS IN BRIEF
FHWA lacks sufficient data to evaluate states’ use of HBP funds. Specifically,
FHWA can not link expenditures of HBP funds to improvements made to deficient
bridges. For example, while Michigan is using almost $3 million in HBP funds on
a project that involves preventive maintenance on four deficient and three non-
deficient bridges, FHWA’s accounting system is unable to determine how much
Federal-aid goes toward improving the condition of deficient bridges.

FHWA also lacks the criteria and guidance necessary to determine whether states
demonstrate overall compliance with bridge inspection standards under the NBIP.
While bridge inspection standards include numerous requirements to ensure bridge
safety, FHWA has not defined how the bridge engineers conducting the annual
compliance review should assess states’ overall compliance and what actions to
take when states fail to comply. Consequently, Federal-aid highway funds were
provided to states with incidents of noncompliance, including some that could
pose serious risks to public safety. For example, based on our analysis of data
from FHWA’s 2007 annual compliance review, a bridge engineer reported a state
to be substantially compliant despite that state’s failure to close 96 bridges, as
required by the bridge inspection standards.



3
    OIG Report Number MH-2009-013, “National Bridge Inspection Program: Assessment of FHWA’s
    Implementation of Data-Driven, Risk-Based Oversight,” January 12, 2009. OIG reports and testimonies
    are available on our website: www.oig.dot.gov.
                                                                                                             3

We are making a series of recommendations to FHWA to strengthen its oversight
of states’ use of HBP funding in improving the conditions of deficient bridges
nationwide and the agency’s enforcement of state compliance with bridge
inspection standards.

BACKGROUND
The HBP is the primary Federal program that funds the replacement and
rehabilitation of bridges nationwide. It classifies bridges according to their
condition, based on data collected by state and local governments during
inspections of public highway bridges; and using a needs-based formula, it
apportions Federal-aid among states to improve bridge conditions. States that
demonstrate greater need receive more funding. 4 Each state’s HBP apportionment
is based largely on the amount of deck area on deficient bridges that qualifies for
replacement or rehabilitation. Figure 1 below illustrates the deck area of the new
I-35W Bridge built to replace the bridge that collapsed, which was structurally
deficient.

                        Figure 1. The Deck Area* of the New I-35W Bridge




    Source: Minnesota Department of Transportation. Edited by OIG. Reprinted with permission.

    * A bridge’s deck area, as highlighted above, represents the amount of its surface area.


A deficient bridge is classified as either structurally deficient or functionally
obsolete. A bridge is generally classified as structurally deficient when the bridge
deck, superstructure, or substructure is in poor or worse condition. 5 A bridge is
generally classified as functionally obsolete when the geometry of the bridge is no
longer suitable for the traffic it serves. 6 Being designated as deficient does not
4
     The needs-based formula apportions a maximum of 10 percent and a minimum of 0.25 percent of the
     total HBP apportionment to each state for any one fiscal year.
5
     The deck, superstructure, and substructure represent the three components of a bridge. The deck directly
     carries traffic. The superstructure supports the deck. The substructure uses the ground to support the
     superstructure.
6
     Factors that affect the geometry of a bridge include the width of the roadway on the bridge, the alignment
     of the approach roadway, and the clearances for the roadway below the bridge.
                                                                                                         4

imply that a bridge is unsafe. Bridge inspections should identify any unsafe
conditions and those bridges determined to be unsafe must be closed.

Congress declared in law that HBP funds be used to improve the condition of
deficient bridges through replacement and rehabilitation; but states are also
allowed to use HBP funds for other activities, such as systematic preventive
maintenance, seismic retrofitting, and scour countermeasures, 7 regardless of a
bridge’s deficiency status. 8 Furthermore, states may transfer up to 50 percent of
their annual HBP funding to other Federal-aid highway programs and spend it on
non-bridge projects. According to statute, FHWA is responsible for monitoring
the efficient and effective use of Federal-aid highway funds. 9 FHWA states in
policy that it will fulfill this responsibility. 10

FHWA sets standards for states’ bridge inspection programs of public highway
bridges through the National Bridge Inspection Standards (NBIS) under the NBIP.
The NBIS includes requirements regarding the frequency with which states should
conduct inspections, the qualifications of inspection personnel, and the data to be
collected. The annual NBIS compliance review consists of a field review of
bridges, interviews with state bridge staff, and a review of state bridge inspection
data. The review is conducted by FHWA Division Office bridge engineers, who
work with other Division officials to determine whether states are compliant. 11 To
enforce NBIS requirements, FHWA may require a non-compliant state to develop
a plan to correct a deficiency and FHWA can ultimately suspend Federal-aid
highway funds if a deficiency is not corrected.

In response to our January 2009 report on FHWA’s implementation of data-
driven, risk-based bridge oversight, FHWA concurred with our recommendation
to develop a comprehensive plan to use data to identify and address higher priority
bridge safety risks in coordination with states. FHWA is in the process of
addressing this recommendation. The importance of incorporating a data-driven,
risk-based approach in FHWA’s oversight of bridge safety was recently
underscored by Congress in its Joint Explanatory Statement accompanying the
fiscal year (FY) 2009 Omnibus Appropriations Act. 12

7
   Scour is the erosion of material due to flowing water that can undermine a bridge’s foundation. Scour is
   the leading cause of bridge failure and an emphasis for FHWA since the collapse of the Schoharie Creek
   Bridge in New York in 1987. Scour mitigation requirements were explicitly incorporated into NBIS in
   2004.
8
   23 U.S.C. §144 (2006).
9
   23 U.S.C. §106 (2006).
10
   FHWA, “Policy on Stewardship and Oversight of the Federal Highway Programs,” June 22, 2001.
11
   Typically, one bridge engineer is located in each Division Office. The person responsible for conducting
   the annual review could have a title other than bridge engineer, such as structures engineer. Division
   Offices are located in each state, the District of Columbia, and Puerto Rico.
12
   Joint Explanatory Statement accompanying Division I (Transportation, Housing and Urban
   Development, and Related Agencies) of the FY 2009 Omnibus Appropriations Act (2009).
                                                                                                             5

FHWA Lacks Sufficient Data To Evaluate States' Use of HBP Funds
To Improve the Nation's Deficient Bridges
FHWA lacks sufficient data to evaluate whether the billions of dollars apportioned
to states to improve deficient bridges were used effectively in improving the
condition of such bridges—a requirement of Federal statute and FHWA policy.
After the former Federal Highway Administrator testified before Congress in
September 2007 that the agency could obtain data on how much HBP funding was
spent on structurally deficient bridges, 13 FHWA officials determined that its
accounting system could not link expenditures of HBP funds to improvements
made to deficient bridges. According to state transportation officials, state
accounting systems also lack this capability.

We found during our field work in Kentucky, Pennsylvania, and Michigan that
FHWA Division Offices do not evaluate whether HBP funds are invested
effectively in improving the condition of deficient bridges. Specifically, Division
Offices determine whether to approve projects identified in states’ multi-year
capital improvement plans by examining a project’s scope of work, conformity to
acceptable engineering design and construction practices, Federal-aid eligibility,
and the availability of requested Federal funds.

FHWA can identify the overall amount of HBP funds apportioned to states to
improve deficient bridges using its accounting system, the Fiscal Management
Information System (FMIS). However, FMIS tracks expenditures only at the
project level and lacks the details necessary to link expenditures to improvements
made to deficient bridges. That is, data on project-level expenditures do not
include sufficient details on how states use HBP funds on the individual elements
within a project. Depending on a project’s size, it could include deficient and non-
deficient bridges, tunnels, roads, and other elements not related to bridges. 14 For
example, Michigan is using almost $3 million in HBP funds on a project that
involves preventive maintenance on four deficient and three non-deficient bridges.
A Pennsylvania project was approved for $82 million in non-HBP Federal-aid
highway funds that involves five deficient and five non-deficient bridges.
However, FMIS lacks the capability to determine how much Federal-aid goes
toward improving the condition of these states’ deficient bridges. In interviewing
state officials in Kentucky, Pennsylvania, and Michigan, we found that states rely
on project-based accounting systems, which also lack specific details on
expenditures.

13
   Hearing on Structurally Deficient Bridges held September 5, 2007, before the U.S. House of
   Representatives Committee on Transportation and Infrastructure.
14
   A project is defined as an undertaking by a state highway department for highway construction,
   including preliminary engineering, acquisition of rights-of-way and actual construction, for highway
   planning and research, or for any other work or activity to carry out the provisions of the Federal laws for
   the administration of Federal aid for highways (23 C.F.R. §1.2 (2008)).
                                                                                                    6


Data in FHWA’s National Bridge Inventory (NBI) 15 may indicate whether HBP
funding has had an impact on improving the condition of deficient bridges. From
FY 2001 to FY 2008, Michigan received $1.1 billion in HBP funds; and the
number of deficient bridges and the deck area of deficient bridges in the state
declined. In contrast, Kentucky received $535 million and Pennsylvania received
$3.5 billion and yet the number of and deck area of deficient bridges in both states
increased. However, the NBI lacks information on states’ use of Federal-aid
highway funds, and therefore, cannot be used to determine whether states made
effective use of HBP funds. 16 Table 1 below compares the amount of HBP
funding received to the condition of bridges in each state.


         Table 1. A Comparison of HBP Funding and Bridge Condition Data
                                                                                              2
                          HBP Funding             Change in           Change in Deck Area (m ) on
                            Received           Deficient Bridges          Deficient Bridges
                          (2001 – 2008)         (2001 – 2008)               (2001 – 2008)

 Kentucky                  $535 Million               359                        321,466
 Michigan                  $1.1 Billion              (536)                      (274,077)
 Pennsylvania              $3.5 Billion               963                        453,999

 Source: OIG analysis using FHWA Notices and NBI data


The need for further evaluation of states’ use of funds is underscored in the case of
Pennsylvania. From FY 2001 to FY 2008, the state chose to transfer
approximately $1.2 billion to other Federal-aid highway programs. Although
states have the statutory authority to perform these transfers, the transfers run
counter to the intent of the HBP, which is to improve the Nation’s bridges.
According to state officials, the transferred HBP funds were used to improve
bridge conditions; but they could not provide documentation to prove this.

FHWA uses NBI data to establish performance goals at the state and national
levels for improving the condition of deficient bridges. However, FHWA lacks a
systematic method of coordinating with states to establish such goals. For
example, FHWA Headquarters provides a baseline of states’ current performance
with performance targets to Division Offices but does not require them to
coordinate or share the results with states. Ensuring the effective use of HBP
funding in improving the condition of deficient bridges nationwide requires that
FHWA coordinate with states because states determine which projects will be
federally financed. Further, reports on progress made in achieving goals for
15
   The National Bridge Inventory is a database maintained by FHWA using data states submit annually on
   the Nation’s approximately 600,000 public highway bridges.
16
   According to FHWA officials, FMIS and the NBI were not originally designed to store data linking
   expenditures of HBP funds to improvements made to deficient bridges.
                                                                                                  7

improving the condition of deficient bridges can be a source of valuable
information to internal and external stakeholders on how well the program is
functioning. For example, FHWA regularly issues a report to Congress that
provides information on the operational performance of the highway system,
which could potentially be used to report progress each state has made in
achieving its goals. 17

Critical examination of the effectiveness of bridge funding is necessary given the
deteriorating condition of structurally deficient bridges on the National Highway
System (NHS) that carry the majority of the Nation’s bridge traffic. Despite
increases in HBP funding, from $4.3 billion in FY 2001 to $5.1 billion in
FY 2008, the deck area of structurally deficient NHS bridges increased by
5 percent, although the overall number of structurally deficient bridges declined.
(Additional information on historical trends related to structurally deficient
bridges is in exhibit B.)

FHWA Lacks the Criteria and Guidance Necessary To Determine
States' Compliance With Bridge Inspection Standards
Inconsistencies in FHWA’s enforcement of bridge inspection standards under the
NBIP are attributable to a lack of standard criteria defining how bridge engineers
should assess states’ overall compliance. Further, FHWA lacks clear and
comprehensive guidance on what actions bridge engineers should take when states
fail to substantially comply. As a result, FHWA has little assurance that states
receiving Federal-aid highway funds adequately comply with bridge inspection
standards and that bridge engineers consistently address higher priority safety
risks. FHWA officials stated that initiatives are underway to improve states
compliance with the NBIS, including the development and implementation of
criteria and guidance that incorporate data-driven, risk-based bridge oversight.
However, FHWA has not conducted a workforce assessment to determine what
resources are needed to implement these initiatives.

Lack of Standard Criteria to Assess States’ Overall Compliance
Despite serious incidents of states’ noncompliance, FHWA Division Offices
concluded that states are substantially compliant with bridge inspection standards
because FHWA has not developed standard criteria to assess states’ overall
compliance. NBIS consists of approximately five general areas of compliance
with each including numerous requirements to ensure bridge safety. For example,
the area of inspection frequency includes a requirement that bridges undergo a
routine inspection at least every 24 months. However, FHWA has not defined
how the bridge engineers conducting the annual compliance review should make a

17
     FHWA, “2006 Status of the Nation’s Highways, Bridges, and Transit: Conditions and Performance,”
     January 22, 2007.
                                                                                     8

determination of states’ overall compliance, such as which areas require greater
consideration because they pose higher priority bridge safety risks. Consequently,
Federal-aid highway funds were provided to states with serious incidents of
noncompliance.

FHWA bridge engineers must report whether a state department of transportation
is, or is not, in substantial compliance with the requirements of the NBIS, but have
no standard criteria to help them make this determination. Figure 2 below is an
excerpt from FHWA’s report template that the 52 Division Offices use to record
the results of the annual NBIS compliance review. The excerpt illustrates that a
determination of overall compliance is required as part of the review and that no
explanation is provided as to how bridge engineers should make their
determination on states’ substantial compliance.

   Figure 2. Excerpt from FHWA’s NBIS Compliance Review Report Template




Source: NBIS Annual Program Review Report Form for 2009, FHWA (emphasis added)


We surveyed Division Office bridge engineers who identified themselves as
having dealt with compliance-related problems as part of the 2007 and 2008
annual NBIS compliance reviews and found that they generally agreed that
FHWA needs better criteria to assess states’ overall compliance. Of the 11
engineers surveyed, 9 responded that FHWA lacked adequate criteria. We also
found that respondents were using widely different approaches in completing their
assessments of states’ compliance. For example, there were respondents who did
not differentiate between substantial and non-substantial deficiencies when
assessing compliance and there were differences in how respondents assessed the
timeliness of bridge inspections. Additionally, based on our analysis of data from
FHWA’s 2007 annual NBIS compliance review, we found some cases where
bridge engineers reported substantial compliance in spite of deficiencies that could
pose serious risks to public safety. For example, one bridge engineer judged a
state to be substantially compliant despite reporting that the state failed to close 96
bridges, as required by NBIS. Similarly, a different bridge engineer in another
state reported that 47 bridges were not closed, as required; but concluded that the
state was substantially compliant. In two other examples, bridge engineers
reported states as substantially compliant even though 200 bridges in one case and
                                                                                                         9

over 500 bridges in the other case were not posted with maximum weight limit
signs, as required. 18

Lack of Clear and Comprehensive Guidance Impedes Enforcement
Actions
FHWA’s lack of clear and comprehensive guidance defining procedures Division
Offices should follow to enforce compliance has led to inconsistencies in
enforcement activities and delays in states’ remediation of deficiencies.
According to FHWA, failure to substantially comply with bridge inspection
standards is grounds for a suspension of Federal-aid highway funds 19 in
accordance with a statute that authorizes the U.S. Secretary of Transportation to
withhold funding if Federal-aid highway projects are not being properly
maintained. 20 However, our survey of 11 bridge engineers found that, generally,
engineers were unclear about when noncompliance could lead to a suspension.
For example, of the 11 bridge engineers we surveyed, 7 responded that FHWA’s
guidance did not adequately define when to suspend funds. Further, eight
responded that noncompliance with any NBIS requirement could be used to justify
a suspension, whereas three others identified only select NBIS requirements as
justification for a suspension.

Survey respondents also supplied evidence that the lack of adequate guidance
contributes to delays in states’ remediation of deficiencies. For example, two
bridge engineers reported that they had notified their respective states of scour-
related deficiencies. One state’s corrective action plan adhered to the timeline
FHWA suggested; but the other state rejected FHWA’s recommended dates and
extended the deadlines by up to 2 years. In a separate example, it took about
2 years for a state to comply with NBIS requirements on procedures related to
critical inspection findings. According to the NBIS, a critical finding is a
structural or safety-related deficiency that requires immediate follow-up inspection
or action.

The development of guidance defining FHWA’s procedural steps for enforcing
compliance with the NBIS is critical to the agency’s efforts to implement data-
driven, risk-based bridge oversight. As stated in our January 2009 report,
FHWA’s annual NBIS compliance review lacked a systematic, data-driven
method of assessing risks and determining, in coordination with states, what

18
   Division Office officials informed us that these deficiencies could be attributable to errors in states’
   bridge databases. However, we found no evidence of concerns about the accuracy of state data in the
   compliance review reports submitted to FHWA Headquarters or of efforts to assess data quality prior to
   concluding that a state was compliant.
19
   FHWA, “Compliance with the National Bridge Inspection Standards, Frequency of Inspection and Load
   Posting of Bridges,” May 14, 1985.
20
   23 U.S.C. §116 (2006).
                                                                                    10

actions to take to address them. A risk analysis generally involves estimating a
risk’s significance, assessing the likelihood of its occurrence, and deciding what
actions should be taken to address it. FHWA’s enforcement actions, such as how
much time states are given to remediate deficiencies and whether to suspend
Federal-aid highway funds, should reflect the results of a data-driven assessment
of a risk’s significance and its possible effect on the safety of the traveling public.
More assertive enforcement actions would be necessary in those cases where
higher priority safety risks are identified.

Lack of a Workforce Assessment Impedes FHWA’s Oversight Initiatives
Although FHWA has initiatives underway to improve states’ compliance with
bridge inspection standards, it has not conducted a comprehensive workforce
assessment that prioritizes staffing and training needs. Such an assessment would
enable the agency to more effectively direct limited funds to higher priority needs.
Funding for bridge inspector training and workshops is limited because FHWA
relies exclusively on general operating funds to cover human resource and training
costs rather than use HBP funds to help cover these costs. However, our review of
Title 23 found that section 151(d) would permit the use of HBP funds to carry out
the NBIP. 21

CONCLUSIONS
Given the needs of the Nation’s approximately 600,000 bridges and the limited
funding available to invest in their replacement and rehabilitation, FHWA must
strengthen its efforts to evaluate states’ use of HBP funds in improving the
condition of deficient bridges nationwide. Current practices do not provide
assurance that states are using HBP funding effectively in improving the condition
of deficient bridges. Further, given the potentially catastrophic risks of not
properly inspecting bridges, FHWA must determine with greater consistency
whether states complied with the NBIS and define procedural steps for enforcing
compliance.

RECOMMENDATIONS
To strengthen its oversight of Federal-aid funds, we recommend that the Federal
Highway Administrator:
1. Collect and analyze HBP expenditure data on a regular basis to identify
   activities undertaken by states, such as bridge replacement and rehabilitation,
   to improve the condition of the Nation’s deficient bridges.



21
     23 U.S.C. §151 (2006).
                                                                                11

2. Collaborate with states in setting quantifiable performance targets to measure
   progress in improving the condition of deficient bridges.

3. Report regularly to internal and external stakeholders on the effectiveness of
   states’ efforts to improve the condition of the Nation’s deficient bridges based
   on the analysis of HBP expenditure data and an evaluation of progress made in
   achieving performance targets.

4. Develop detailed criteria to help bridge engineers determine with greater
   consistency whether states demonstrate overall compliance with the NBIS.

5. Develop a policy providing clear, comprehensive, risk-based guidance that
   defines procedures Division Offices should follow to enforce compliance with
   the NBIS.

6. Conduct a workforce assessment so that FHWA can identify strategic needs
   and target limited funding to higher priority staffing and training needs in
   implementing data-driven, risk-based bridge oversight.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FHWA for review and comment on
October 22, 2009. FHWA provided us formal comments on December 11, 2009.
Those comments are included as an appendix to this report.

FHWA concurred with all our recommendations, and its planned actions include
evaluating the integration of current stand alone systems to improve bridge project
information, as well as the establishment of clear, comprehensive, risk-based
guidance for enforcing compliance with the NBIS. FHWA noted that it seeks to
strike a balance between what is possible and achievable in the near term with
existing resources, systems, and data and what may be achievable in the future.
Specifically, FHWA stated that its efforts to obtain information on state use of
Federal funding for deficient bridges and their resulting improvement in condition
could be significantly affected by changes to the Federal-aid program and the HBP
as a result of reauthorization.

We recognize that potential reauthorization changes, such as modifications to the
HBP, could impact the specific information gathered on states’ use of bridge
funding, but we also maintain that taking action prior to reauthorization will make
it easier to carry out the expected mandates. Based on our analysis of a pending
congressional proposal for the reauthorization, expected new requirements include
monitoring each state’s use of Federal funding, setting performance targets for
                                                                                12

each state to reduce the deck area of bridges classified as structurally deficient,
and directing states to report on their use of Federal funding and progress made
towards meeting performance targets. Consequently, through its efforts in
response to our recommendations, FHWA should be better prepared for
implementation of these new requirements as part of the reauthorization.

ACTION REQUIRED
FHWA’s actions taken and planned for recommendations 1 through 5 are
reasonable and subject to our follow-up provisions. In its response to
recommendation 6, FHWA stated that it conducted a workforce assessment in
February 2009. In accordance with Department of Transportation Order 8000.1C.,
we request that FHWA provide additional information on the workforce
assessment and its results within 30 calendar days of the date of this report in
order for us to determine if it meets the intent of our recommendation and whether
to close the recommendation.

We appreciate the cooperation and assistance provided by FHWA representatives
during our audit. If you have any questions concerning this report, please call me
at (202) 366-5630.

                                        #
                                                                                                         13



EXHIBIT A. SCOPE AND METHODOLOGY
We evaluated the Highway Bridge Program (HBP) and the National Bridge
Inspection Program (NBIP) to assess FHWA’s: (1) oversight of Federal-aid funds
provided to states through the HBP for deficient bridges and (2) enforcement of
bridge inspection standards under the NBIP, such as suspending Federal-aid
highway funds when states fail to adequately comply with standards. As part of
this audit, we examined how FHWA could better implement data-driven, risk-
based bridge oversight and incorporated related information from our January
2009 report as appropriate. This report concludes our audit work for the two
remaining efforts announced in August 2007 related to FHWA’s oversight of the
Nation’s bridges. 22

To conduct this audit, we interviewed staff members of FHWA’s Office of Bridge
Technology, Office of Asset Management, Office of the Chief Financial Officer,
Office of Policy and Governmental Affairs, and the American Association of State
Highway Transportation Officials. We conducted site visits in Michigan,
Kentucky, and Pennsylvania to perform standardized in-depth, in-person
interviews with FHWA Division Office staff and state transportation officials.
These states were selected based on our analysis of NBI data from 2001 to 2007
using a measure of the percentage of deck area on structurally deficient bridges.
We began our audit with a specific focus on structurally deficient bridges, and
later added functionally obsolete bridges in our evaluation of FHWA’s oversight
of HBP funds for all deficient bridges. We identified a substantial reduction in the
percentage of deck area on structurally deficient bridges for Michigan, an increase
for Kentucky, and almost no change for Pennsylvania. We also selected
Pennsylvania because of its unusually high net transfers of HBP funding from
FY 2001 through FY 2007, which were almost half of all net transfers out of HBP
for the time period. In addition, we reviewed relevant laws, regulations, policies,
program documents, and other documentary evidence, including performance
measures.

We analyzed the results of FHWA’s 2007 annual NBIS compliance review to
identify compliance-related problems and contacted Division Offices as necessary
to validate data obtained from the compliance review reports. We also conducted
two surveys of Division Office staff—an initial survey of all Division Office
bridge engineers and then a more in-depth, follow-up survey of the 11 engineers
who identified themselves as having dealt with compliance-related problems as
part of the 2007 or 2008 annual NBIS compliance reviews. In the follow-up
survey, we obtained information related to FHWA’s enforcement activities and

22
     OIG, “Inspector General’s Response to Secretary Peters’ Request for an Assessment of the National
     Bridge Inspection Program,” August 3, 2007.


Exhibit A. Scope and Methodology
                                                                                                   14

correspondence regarding enforcement actions taken during 2007 and 2008. We
conducted the surveys using standardized questionnaires sent via email.

Further, we obtained and reviewed FMIS data. We intended to use the data to
identify the impact of HBP funding on structurally deficient bridges. However,
after we learned that FMIS lacked sufficient data to perform this analysis, we
focused on identifying the total amount of HBP funding received by the states
selected for site visits. In evaluating the reliability of FMIS data, we reviewed a
recent audit performed by an independent auditor, which determined that financial
statements produced by FMIS were accurate. 23 Based on those results, we
concluded that the data were sufficiently accurate for our purposes.

We started our audit using NBI data from 2001 to 2006 and incorporated 2007 and
2008 data as they became available. We used data from 2001 to 2007 to select
states for our site visits and used NBI data over the entire time period in
developing our findings. Our past work and the work of others have identified
limitations with NBI data. However, we determined that despite its limitations,
the NBI is the most comprehensive source of data on bridges nationwide and that
the data were sufficiently reliable for the purposes of helping to target our
interviews and, together with other evidence, establish sufficient support for our
findings and recommendations. We tested a random sample of 2008 NBI data for
30 highway bridge records, including 10 each from Michigan, Kentucky, and
Pennsylvania. We also tested several data points used to support our audit
findings, including bridge condition, dimensions, alignment, and highway system.
This limited testing of FHWA’s NBI data indicated the data were complete and
adequately reflected the source data from the states’ bridge records.

Our audit was conducted from August 2007 through July 2009. We conducted
this performance audit in accordance with Generally Accepted Government
Auditing Standards as prescribed by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




23
     Independent Auditors’ Report issued by KPMG for U.S. Department of Transportation Highway Trust
     Fund as of September 30, 2007 and 2006.


Exhibit A. Scope and Methodology
                                                                                                 15



EXHIBIT B. BACKGROUND ON HISTORICAL TRENDS RELATED
TO STRUCTURALLY DEFICIENT BRIDGES
According to the National Bridge Inventory (NBI), the number of structurally
deficient bridges decreased from 83,630 to 71,469, or about 15 percent, from 2001
through 2008.        However, these figures can be misleading in assessing
improvement in bridge conditions because they do not take into account other
important factors, such as the size of structurally deficient bridges as measured by
deck area and the amount of bridge traffic. Table 2 below compares the condition
of bridges nationwide from 2001 through 2008. During this time frame, although
the number of structurally deficient bridges declined almost 15 percent, the deck
area of structurally deficient bridges declined nationwide by a comparatively much
smaller amount of 2 percent. When focusing specifically on National Highway
System (NHS) bridges, which carry a large majority of the Nation’s bridge traffic,
conditions have actually worsened as the deck area of structurally deficient NHS
bridges increased by 5 percent.

                          Table 2. Structurally Deficient Bridges
                           Comparison between 2001 and 2008
                                        Bridges                            Change
                            2001             2008         Number                    Percentage
 All Highway Systems        83,630           71,469       (12,161)                  (14.5%)
 NHS                        6,643            6,051        (592)                     (8.9%)
                                                  2
                                     Deck Area (m )                        Change
                                                                      2
                            2001             2008         Deck Area (m )            Percentage
 All Highway Systems        31,505,907       30,890,605   (615,302)                 (2.0%)
 NHS                        12,455,463       13,079,674   624,211                   5.0%
 Source: OIG analysis using NBI data




Exhibit B. Background on Historical Trends Related To Structurally Deficient
Bridges
                                                                  16



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


   Name                                        Title

   Eric Mader                                  Program Director

   Christopher Brothers                        Project Manager

   Stephen Gruner                              Project Manager

   Kimberley Bolding                           Senior Auditor

   Michael Dzandza                             Auditor

   Regan Maund                                 Analyst

   Jean Tanaka                                 Analyst

   Rodolfo Pérez                               Engineer Advisor

   Aron Wedekind                               Engineer




Exhibit C. Major Contributors to this Report
                                                                                                              17

APPENDIX. MANAGEMENT COMMENTS


                                                          Memorandum

Subject:   INFORMATION: Federal Highway Administration (FHWA)                       Date: December 11, 2009
           Response to Office of Inspector General (OIG) Draft Report,
           “Assessment of FHWA Oversight of the Highway Bridge Program
           and the National Bridge Inspection Program”


From:      Victor M. Mendez                                                         Reply to
           Administrator                                                            Attn. of:   HIF/HAIM

To:        Calvin L. Scovel III
           Inspector General (JA-40)


           The FHWA has long recognized the critical importance of highway bridges to the safe and effective
           functioning of our Nation’s highway system. For that reason, the FHWA has established programs
           intended to help States identify deficient bridges, track the condition of those bridges, and target
           funding for bridges. The FHWA’s efforts in this regard have met with some success in improving the
           condition of the Nation’s highway bridges. Over the last 10 years the number of deficient bridges in
           the Nation’s inventory decreased from 31.4 percent to 26.9 percent.

           The FHWA’s existing systems, including the Fiscal Management Information System (FMIS), which
           tracks expenditures, and the National Bridge Inventory (NBI), which tracks bridge specific
           information, have served their intended purpose well for many years. These stand-alone legacy
           systems have enabled the creation and use of the performance measures used to monitor bridge
           conditions today. Creating new performance measures targeted at spending on the structurally
           deficient subset of the Nation’s bridges will challenge the capabilities of these systems. Such
           targeted performance measures will likely require additional data, increased capabilities, and
           potentially new authorities that may be considered through the surface program reauthorization.




Appendix. Management Comments
                                                                                                           18


     In responding to the report’s recommendations, we are seeking to strike a balance between what is
     possible and achievable in the near term with existing resources, systems and data, and that which
     may be achievable in the future. As we proceed through the course of surface reauthorization, the
     FHWA will be mindful of the report’s findings and recommendations and as possible, will seek those
     enhancements that could enable more detailed tracking of fund use by States on the subset of
     deficient bridges and their accompanying change in condition. The FHWA also agrees that assessing
     and enforcing National Bridge Inspection Standards (NBIS) compliance with greater consistency is
     achievable through data-driven, risk-based bridge oversight. In response to the Phase I OIG audit
     recommendations from January 2009, the FHWA moved forward in developing detailed criteria and
     policy to achieve greater uniformity for determining compliance.

     The following are the OIG draft report’s specific recommendations and our responses.

     Recommendation 1: Collect and analyze Highway Bridge Program (HBP) expenditure data on a
     regular basis to identify activities undertaken by states, such as bridge replacement and rehabilitation,
     to improve the condition of the Nation’s bridges.

     Response: Concur. Using the existing legacy systems, the FHWA has fulfilled the Federal-aid
     program requirements under Title 23 of the United States Code. Specifically, the FHWA administers
     the HBP through use of the NBI. The NBI data is utilized to determine States’ bridge needs and
     apportion HBP funds. Additionally, the FHWA monitors and tracks the condition of the Nation’s
     bridges through the NBI. As discussed above, these measures indicate that there is some
     improvement in the overall condition of the nation’s highway bridges. While we recognize that
     potentially useful and effective information could be derived with the collection of more specific
     information on State use of Federal funding on deficient bridges and the resulting improvement in
     condition, it is not clear that this level of specificity is achievable in the near term.

     Recognizing the potential for useful modification to existing performance information, by May 1,
     2010, the FHWA will evaluate possible enhancements for collecting and analyzing expenditures on
     the Nation’s bridges, such as integration of current stand alone systems and collection of more
     detailed project information. Once feasible near term enhancements are identified, the FHWA will
     develop an implementation schedule. It is important to recognize that the outcome of these
     considerations could be significantly affected by any changes to the Federal-aid program and the
     HBP as a result of reauthorization.

     Recommendation 2: Collaborate with States in setting quantifiable performance targets to measure
     progress in improving the condition of deficient bridges.

     Response: Concur. Currently, the FHWA strategic plan identifies bridge conditions on all public
     roads as an outcome measure. The FHWA tracks the deck area on deficient bridges as the bridge
     condition outcome measure and has established annual performance targets. In anticipation of an
     increased performance focus moving forward, the FHWA established the Performance Management
     Transition Team, comprised of cross-functional, geographically dispersed members representing
     various FHWA offices, to outline a plan for the Agency to transition to a performance-based Federal-
     aid program, which would include system performance goals and measures. The FHWA will ensure



Appendix. Management Comments
                                                                                                           19

     that the goals and performance measures address improvements to bridge conditions, to the extent
     that data and systems are capable. Completion of this effort will be subsequent to the next surface
     authorization, in order to ensure that these goals and measures are in accord with any new
     requirements.

     Recommendation 3: Report regularly to internal and external stakeholders on the effectiveness of
     States’ efforts to improve the condition of the Nation’s deficient bridges based on the analysis of the
     HBP expenditure data and an evaluation of progress made in achieving performance targets.

     Response: Concur. Currently, the FHWA regularly issues a report to Congress that provides
     information on the operational performance of the Nation’s highway system – Status of the Nation’s
     Highways, Bridges, and Transit: Conditions and Performance (C&P Report). By May 1, 2010, the
     FHWA will evaluate the possible use of this publication to report on the effectiveness of States’
     efforts to improve the condition of the Nation’s bridges. Information on States efforts to improve the
     condition of deficient bridges will be offered to the extent possible within the limitations discussed
     above.

     Recommendation 4: Develop detailed criteria to help bridge engineers determine with greater
     consistency whether States demonstrate overall compliance with the NBIS.

     Response: Concur. Our comprehensive approach to addressing the Phase I OIG audit
     recommendations from January 2009 incorporates actions that specifically address this
     recommendation. During the 2011 annual review cycle, the FHWA plans to implement a new
     National Bridge Inspection Program (NBIP) oversight process and procedures. The process will
     include specific risk-based criteria for assessing compliance. The FHWA has drafted detailed criteria
     designed to achieve the goal of this recommendation. The draft criteria consists of more than 20
     specific metrics linked to the NBIS regulatory provisions, such as inspection frequency and inspector
     qualifications, with defined risk tolerance levels for compliance, substantial compliance, and non-
     compliance determination. Application of the defined criteria will improve the consistency in
     determining compliance with the NBIS. The current schedule calls for a number of Division Offices
     to pilot the new process and procedures in 2010 followed by full implementation during 2011. The
     target date for completion of the new process and procedures is December 31, 2010.

     Recommendation 5: Develop a policy providing clear, comprehensive, risk-based guidance that
     defines procedures Division Offices should follow to enforce compliance with the NBIS.

     Response: Concur. The FHWA has drafted a policy that provides clear, comprehensive, risk-based
     guidance for defining procedures for Division Offices to follow when enforcing compliance with the
     NBIS. It will be introduced in 2011 as part of the new oversight process described in response to
     recommendation 4.

     Recommendation 6: Conduct a workforce assessment so that the FHWA can identify strategic
     needs and target limited funding to higher priority staffing and training needs in implementing data-
     driven, risk-based bridge oversight.




Appendix. Management Comments
                                                                                                        20

     Response: Concur. The FHWA conducted a workforce assessment in February 2009, and the
     structures discipline was included in the assessment. The results of the assessment are being used for
     multiple purposes including the identification of staff training needs and gaps in knowledge areas and
     skills. Additionally, as noted above, the FHWA plans to conduct a pilot of the new NBIP oversight
     process and procedures during 2010. As part of the pilot, the FHWA will assess the impact of the
     changes on our bridge workforce and identify training needs. Our goal is to implement an approach
     to oversight that is achievable using existing resources. We have begun to explore the use of
     program funds to support oversight of the NBIP. Should additional resources become available in the
     future, we will revisit resource allocation among the higher bridge risk areas faced by the Agency.
     Given the workforce assessments already completed and the plan to assess the impacts associated
     with implementation of the new oversight process, the FHWA considers this recommendation closed.

     In closing, the FHWA expresses its appreciation and support of the OIG’s efforts to further improve
     the FHWA’s oversight of the National Bridge Inspection and Highway Bridge Programs. If you have
     any questions or comments regarding this response, please contact Mr. Myint Lwin at (202) 366-
     4589.




Appendix. Management Comments
